TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Most Automated Underreporter Program
                   Notices Are Correct; However, Additional
                             Oversight Is Needed



                                      September 25, 2008

                              Reference Number: 2008-40-180




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Campus        | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Most Automated Underreporter Program Notices
                             Are Correct; However, Additional Oversight Is Needed
                             (Audit # 200840003)

 This report presents the results of our review to determine whether the information provided to
 taxpayers in notices issued by the Wage and Investment Division Automated Underreporter
 Program (hereafter referred to as the AUR Program or the Program) are complete and accurate.
 This audit was conducted as part of our Fiscal Year (FY) 2008 Annual Audit Plan and addresses
 the Taxpayer Protection and Rights management challenge.

 Impact on the Taxpayer
 The AUR Program is an important component of the Internal Revenue Service’s (IRS) efforts to
 ensure voluntary taxpayer reporting compliance. This Program uses third-party payer
 information (such as that from banks and brokers) to determine whether taxpayers have reported
 all of their income. Notices are sent advising taxpayers of additional tax on any unreported
 income. While most AUR Program notices were correct, some taxpayers were negatively
 affected by inaccurate information on the notices. We believe these taxpayers agreed to
 inaccurate assessments as a result of the confusion caused by the complexity of the notices.

 Synopsis
 The Computer Paragraph (CP) 2000 notice is the primary notice that the IRS issues to taxpayers
 as a result of underreporting discrepancies. During FY 2007, the Wage and Investment Division
 AUR Program closed approximately 1.3 million cases after sending notices to taxpayers for
 underreporting discrepancies identified on their Tax Year 2005 returns.
                    Most Automated Underreporter Program Notices Are Correct;
                             However, Additional Oversight Is Needed



To evaluate whether the notices are accurate, we selected and analyzed a statistically valid
random attribute sample of AUR Program notices sent to 138 taxpayers by the Wage and
Investment Division in FY 2007 and found that 7 (5.1 percent) taxpayers were sent inaccurate
information on CP 2000 notices. In our sample, employee errors on CP 2000 notices resulted in
taxpayers being both overassessed $18,968 and underassessed $1,146 in tax. Based on our
analysis, we estimate that in FY 2007, 48,669 taxpayers received CP 2000 notices with
inaccurate information that might have resulted in overassessments of tax. We also estimate that
an additional 19,468 taxpayers might have been erroneously underassessed tax as a result of
CP 2000 notices with inaccurate information. If the numbers of AUR Program notices issued by
the Wage and Investment Division remain constant over the next 5 years, we estimate that
243,345 taxpayers might be overassessed tax and 97,340 taxpayers might be underassessed tax
based on erroneous information in the CP 2000 notices.
During our discussions with the IRS, AUR campus1 site management stated that these problems
resulted from employee mistakes. However, we believe that the complexity of the CP 2000
notices might also be a contributing factor. In fact, during FY 2007, customer satisfaction
surveys for the Wage and Investment Division AUR Program indicated that, depending on the
survey quarter, 24 percent to 32 percent of the taxpayers stated that their primary reason for
calling the IRS was to have someone explain the CP 2000 notice to them. The complexity of the
CP 2000 notice could be why some taxpayers do not question the information provided on the
notice even when that information is incorrect.
In addition, although required by the Internal Revenue Manual, some of the Wage and
Investment Division AUR Program campus site managers did not always comply with the
requirement to submit a corrective action plan when the weekly notice quality review error rate
exceeded 10 percent. During the first 7 months of FY 2008, there were 12 occasions when the
campus sites should have submitted corrective action plans to the Program Office because their
weekly notice error rates exceeded 10 percent. However, the sites submitted only
5 (41.7 percent) corrective action plans, and only 3 (25 percent) of these corrective plans were
submitted within the 2-day requirement.2
Although the IRS has established a quality review process for identifying employee errors on
notices, Wage and Investment Division AUR Program management has not ensured that campus
site managers consistently take action to address notice inaccuracies. In addition, as of
September 2007, 261 (28.6 percent) of the 911 employees in the Wage and Investment Division
AUR campus sites had fewer than 2 years experience.



1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The Austin AUR campus site did not have a weekly notice error rate exceeding 10 percent during the first
7 months of FY 2008.
                                                                                                               2
                  Most Automated Underreporter Program Notices Are Correct;
                           However, Additional Oversight Is Needed



Wage and Investment Division AUR Program management stated that increased oversight of the
quality program has led their sites to become more involved in establishing corrective action
plans, developing error tracking reports, and resolving procedural issues with their employees.
However, we believe that more action is needed. The combination of inexperienced staff and
site managers who were not adequately addressing employee errors has resulted in a higher rate
of inaccurate CP 2000 notices being issued to taxpayers.

Recommendations
We recommended that the Director, Compliance, Wage and Investment Division, 1) ensure that
AUR Program management incorporates additional information on notice review procedures and
quality service expectations into its refresher training for Program employees, 2) coordinate with
the Small Business/Self-Employed Division to simplify the CP 2000 notices issued by the
Program, and 3) ensure that Program management monitors campus site compliance with
requirements to submit and implement corrective action plans when notice review error rates
exceed 10 percent.

Response
IRS management agreed with all of the report recommendations. AUR Program management is
finalizing Continuing Professional Education training materials that include a lesson on quality
notice review procedures and quality service expectations. This training will be provided as
part of the FY 2009 mandatory training and delivered during the first quarter of FY 2009.
In addition, the Wage and Investment Division will coordinate with the Small Business/
Self-Employed Division, Office of Taxpayer Burden; the Notice Task Force Team; and other key
stakeholders to improve the clarity, readability, and accuracy of the CP 2000 notices they issue.
This process will likely span 2 or 3 years based on prior CP 2000 notice revisions and will
require input via external and internal focus groups, notice design, and testing prior to full
implementation.
IRS management has issued to the AUR campus sites a reminder of the Internal Revenue Manual
requirement to timely develop, implement, and submit corrective action plans when notice
review error rates exceed 10 percent. They will follow up on this requirement during periodic
meetings with the campuses. The AUR Program management staff will create a site on the
Compliance function shared drive for the 3 AUR campus sites to post weekly notice review
results and action plans when the error rate exceeds 10 percent, allowing prompt notification to
AUR Headquarters. The web site will be fully implemented after completion of briefing
sessions with site management and quality coordinators.
While IRS management agreed with our recommendations and conclusions, they did not believe
that our sample size was large enough to make reliable projections to the population. As a result,

                                                                                                 3
                  Most Automated Underreporter Program Notices Are Correct;
                           However, Additional Oversight Is Needed



the IRS disagreed with some of the outcome measures in Appendix IV of this report. We believe
that our sample size was appropriate and our projections accurate. The purpose of audit
sampling is to identify potential problems and to quantify their effect to the extent possible. We
balance the cost of audit oversight with the fiscal expectations of Congress and the taxpaying
public. While a larger sample might identify less common errors, our sample was adequate to
identify and quantify the issues found with the accuracy of AUR Program CP 2000 notices that
our recommendations and related outcome measures address. Management’s complete response
to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                       Most Automated Underreporter Program Notices Are Correct;
                                However, Additional Oversight Is Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          In Some Instances, the Complexity of the Computer Paragraph 2000
          Notices Might Have Resulted in Taxpayers Agreeing to Erroneous
          Tax Assessments...........................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 7

          Additional Program Oversight Is Needed to Reduce Automated
          Underreporter Program Notice Errors ..........................................................Page 8
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Example of a CP 2000 Notice ...............................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 26
      Most Automated Underreporter Program Notices Are Correct;
               However, Additional Oversight Is Needed




                    Abbreviations

AUR           Automated Underreporter
CP            Computer Paragraph
FY            Fiscal Year
IRS           Internal Revenue Service
                    Most Automated Underreporter Program Notices Are Correct;
                             However, Additional Oversight Is Needed




                                           Background

The Automated Underreporter Program (hereafter referred to as AUR Program or the Program)
is an important component of the Internal Revenue Service’s (IRS) efforts to ensure voluntary
taxpayer reporting compliance. During Fiscal Year (FY) 2007, nearly 3.5 million taxpayers were
contacted by the AUR Program, resulting in more than $5 billion in additional tax assessments.
Twice a year, the AUR Program matches taxpayer income and deductions submitted on
information returns by third parties (e.g., employers, banks, brokerage firms, and other payers)
against amounts reported by taxpayers on their individual income tax returns. The 2 matches
identify approximately 15 million potential underreporter cases. However, due to resource
constraints, the Program can work only about 4.5 million cases annually, with approximately
one-half of these cases being worked in the Wage and Investment Division and the remainder in
the Small Business/Self-Employed Division.
Once selected, the AUR Program cases are distributed to six campus sites1 for processing. When
the campus sites receive their inventory, tax examiners manually review each case.2 After
analyzing the tax returns, tax examiners are sometimes able to immediately resolve the
underreporting discrepancies–no further actions are taken with these cases.
In the remaining cases, tax examiners will request additional information from taxpayers by
sending a Computer Paragraph (CP) 2501 and/or a CP 2000 notice.3 Figure 1 shows how the
IRS adjusts the taxpayer’s income as a result of an identified underreporting issue, as well as
proposes a corresponding tax assessment on the CP 2000 notice. Appendix V provides an edited
example of a complete CP 2000 notice that would be issued to a taxpayer.



1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. The six AUR
campus sites include Atlanta, Georgia; Austin, Texas; and Fresno, California, in the Wage and Investment Division
and Brookhaven, New York; Ogden, Utah; and Philadelphia, Pennsylvania, in the Small Business/Self-Employed
Division.
2
  Tax examiners analyze more than 95 percent of the cases worked by the AUR Program. The remaining cases are
systemically processed without any tax examiner review.
3
  The CP 2000 notice is an IRS letter sent to a taxpayer to resolve discrepancies between income, credits, and/or
deductions claimed on a tax return and those reported by a third party, as well as to propose an additional tax
assessment. In some cases, a CP 2501 notice will be issued before a CP 2000 notice. The CP 2501 notice is similar
to the CP 2000 notice in that it is used by the IRS to resolve discrepancies between income, credits, and/or
deductions claimed on a tax return and those reported by a third party. However, the CP 2501 notice does not
propose an additional tax assessment. If the taxpayer agrees with the CP 2501 notice or does not respond, the IRS
will issue a CP 2000 notice.
                                                                                                         Page 1
                        Most Automated Underreporter Program Notices Are Correct;
                                 However, Additional Oversight Is Needed



                  Figure 1: Hypothetical Example of Information Contained in a
                                         CP 2000 Notice
 3. Changes to Your Return
 Note: We only show the items that have been affected by the information we received in the following chart.
 All other items are correct as shown on your return. Unless noted, line numbers always refer to the line
 number on your tax return.
   Changes to Your Income and                         Shown on             Reported to IRS      Difference
   Deductions                                          Return              or as Corrected
   SECURITIES                                                         $0             $ 23,000         $ 23,000

                                                   Income Net Difference
                                                                                                      $ 23,000

                                                        Total Change to Taxable Income               $ 23,000


   Changes to Your                                    Shown on              As Corrected        Difference
   Tax Computation                                     Return                  by IRS
   Taxable Income, line 43                                   $ 204,000              $ 227,000         $ 23,000

   Tax, line 44                                               $ 48,000               $ 55,500          $ 7,500

   Alternative minimum tax, line 45                            $ 4,000                $ 3,900           $ -100

   Total Tax, line 63                                         $ 52,000               $ 59,400          $ 7,400

                                                   Net Tax Increase                                    $ 7,400



   Summary of
   Proposed Changes
  Amount of Tax Increase                                                                               $ 7,400

  Accuracy-Related Penalty, IRC Section 6662(a)                                                        $ 1,500

  Interest, IRC Section 6601, From 04/02/2006 To
  05/01/2007                                                                                            $ 800

  Total Amount You Owe                                                                                 $ 9,700

 Source: IRS-provided copy of a CP 2000 notice. We added numerical information for illustrative purposes
 only.

If the taxpayer provides supporting documentation and the tax examiner determines that the
income, credits, and/or deductions reported on the tax return are correct, the case is closed with
no changes to the taxpayer’s account. However, if the examiner determines that the income,
credits, and/or deductions reported on the tax return are not correct and the taxpayer agrees, the
IRS will assess additional tax based on the CP 2000 notice and close the case as agreed. If the
taxpayer does not agree or does not respond to the CP 2000 notice within the required time

                                                                                                                 Page 2
                    Most Automated Underreporter Program Notices Are Correct;
                             However, Additional Oversight Is Needed



period, the IRS will issue a Statutory Notice of Deficiency4 and assess additional tax. Figure 2
compares the number of Statutory Notices issued to the number of default assessments against
taxpayers who did not respond to CP 2000 notices in FYs 2006 and 2007.
               Figure 2: Comparison of Statutory Notices Issued to Default
                          Assessments for FYs 2006 and 2007

            Fiscal Year                                      2006                       2007
            Statutory Notices Issued                      2,980,619                  3,340,951
            Default Assessments                           1,752,841                  2,145,715
            Rate of Default Assessments                   59 percent                 64 percent
           Source: Wage and Investment Division AUR Program Office.

The IRS estimates that for FY 2007, 91.8 percent of the AUR Program notices issued to
taxpayers were accurate. However, in June 2007, the IRS Oversight Board5 raised concerns
about taxpayers receiving AUR Program notices with inaccurate information. These issues
included capital gains, dividend income, and State income tax refunds reported on individual tax
returns.
This review was performed at the Wage and Investment Division AUR Program Office in
Atlanta, Georgia, and the AUR campus sites in Atlanta, Georgia; Austin, Texas; and
Fresno, California, during the period November 2007 through May 2008. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




4
  An IRS letter sent to taxpayers notifying them of an increase in the amount of taxes they owe.
5
  The nine-member IRS Oversight Board was created by Congress under the IRS Restructuring and Reform Act of
1998 [Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.)]. The Board’s
responsibility is to oversee the IRS in its administration, management, conduct, direction, and supervision of the
execution and application of the internal revenue laws.
                                                                                                            Page 3
                 Most Automated Underreporter Program Notices Are Correct;
                          However, Additional Oversight Is Needed



Recommendations
The Director, Compliance, Wage and Investment Division, should:
Recommendation 1: Ensure that Wage and Investment Division AUR Program management
incorporates additional information on notice review procedures and quality service expectations
into its refresher training for Program employees.
       Management’s Response: IRS management agreed with this recommendation.
       AUR Program management is finalizing Continuing Professional Education training
       materials that include a lesson on quality notice review procedures and quality service
       expectations. This training will be provided as part of the FY 2009 mandatory training
       and delivered during the first quarter of FY 2009.
Recommendation 2: Coordinate with the Small Business/Self-Employed Division to
simplify the CP 2000 notices issued by the AUR Program.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division will coordinate with the Small Business/Self-Employed
       Division, Office of Taxpayer Burden; the Notice Task Force Team; and other key
       stakeholders to improve the clarity, readability, and accuracy of the CP 2000 notices they
       issue. This process will likely span 2 or 3 years based on prior CP 2000 notice revisions
       and will require input via external and internal focus groups, notice design, and testing
       prior to full implementation.
       While IRS management agreed with the above recommendations, they did not believe
       that our sample size was large enough to make reliable projections to the population. As
       a result, the IRS disagreed with the projected outcome measures in Appendix IV—
       Taxpayer Rights and Entitlements for 243,345 taxpayers and Increased Revenue for
       97,340 taxpayers.
       Office of Audit Comment: We are pleased that IRS management agreed to
       implement our recommendations. However, we do not agree with management’s
       assessment that our sample size was not large enough to make projections. We believe
       that our sample size was appropriate and our projections accurate. The purpose of audit
       sampling is to identify potential problems and to quantify their effect to the extent
       possible. We balance the cost of audit oversight with the fiscal expectations of Congress
       and the taxpaying public. While a larger sample might identify less common errors, our
       sample was adequate to identify and quantify the issues found with the accuracy of AUR
       Program CP 2000 notices that our recommendations and related outcome measures
       address.




                                                                                          Page 7
                    Most Automated Underreporter Program Notices Are Correct;
                             However, Additional Oversight Is Needed



Additional Program Oversight Is Needed to Reduce Automated
Underreporter Program Notice Errors
The Internal Revenue Manual6 requires AUR campus sites to perform a weekly quality review of
a statistically valid sample of CP 2000 notices. During this quality review process, tax
examiners rework the in-process cases and review the CP 2000 notices for accuracy and overall
quality prior to the notices being issued. The weekly notice quality review provides campus site
management with information on current trends and accuracy to enable immediate corrective
actions on problems as they are identified. The results of these weekly quality reviews are to be
forwarded monthly to the AUR Program Office. However, if during these weekly reviews the
number of errors discovered that affect the total balance due on the notices exceeds 10 percent of
the sample, then campus site managers are required to submit a corrective action plan within
2 days to the AUR Program Office.
Corrective action plans are to provide specific details on the steps that site management plans to
take to correct the problems identified during the weekly notice quality reviews. For example, a
corrective action plan might include having the manager provide specific feedback to the
employee who made the error, having the identified error trends and their corrective actions
informally discussed during team meetings, or providing more formalized training to the site
based on the types and complexity of errors identified.
We determined that some of the Wage and Investment Division AUR campus site managers did
not always comply with the requirement to submit a corrective action plan when the weekly
notice quality review error rate exceeded 10 percent. During the first 7 months of FY 2008,
there were 12 occasions when the sites should have submitted corrective action plans to the
Program Office as a result of their weekly notice error rates exceeding 10 percent. However, the
sites submitted only 5 (41.7 percent) corrective action plans, and only 3 (25 percent) of these
corrective plans were submitted within the 2-day requirement.7
Although the IRS has established a quality review process for identifying employee errors on
notices, Wage and Investment Division AUR Program management has not ensured that campus
site managers consistently take action to address notice inaccuracies. In addition, as of
September 2007, 261 (28.6 percent) of the 911 employees in the Wage and Investment Division
AUR campus sites had less than 2 years experience.
Wage and Investment Division AUR Program management stated that increased oversight of the
quality program has led their sites to become more involved in establishing corrective action
plans, developing error tracking reports, and resolving procedural issues with their employees.
However, we believe that more action is needed. The combination of inexperienced staff and

6
 Internal Revenue Manual Section 4.19.3.21.
7
 The Austin AUR campus site did not have a weekly notice error rate exceed 10 percent during the first 7 months of
FY 2008.
                                                                                                          Page 8
                 Most Automated Underreporter Program Notices Are Correct;
                          However, Additional Oversight Is Needed



campus site managers who were not adequately addressing employee errors has resulted in a
higher rate of inaccurate CP 2000 notices being issued to taxpayers.
Taxpayers voluntarily file and pay taxes based on their confidence in the tax system. Our review
showed that taxpayers are negatively affected by inaccurate information on CP 2000 notices.
While some taxpayers will expend the time and money needed to resolve inaccurate issues raised
by the IRS, others might not question the information on the notices and pay taxes that are not
owed.

Recommendation
Recommendation 3: The Director, Compliance, Wage and Investment Division, should
ensure that AUR Program management monitors campus site management compliance with
requirements to submit and implement corrective action plans when notice review error rates
exceed 10 percent.
       Management’s Response: IRS management agreed with this recommendation.
       They have issued to the AUR campus sites a reminder of the Internal Revenue Manual
       requirement to timely develop, implement, and submit corrective action plans when
       notice review error rates exceed 10 percent. They will follow up on this requirement
       during periodic meetings with the campuses. The AUR Program management staff will
       create a site on the Compliance function shared drive for the 3 AUR campus sites to post
       weekly notice review results and action plans when the error rate exceeds 10 percent,
       allowing prompt notification to AUR Headquarters. The web site will be fully
       implemented after completion of briefing sessions with the site management and quality
       coordinators.




                                                                                         Page 9
                    Most Automated Underreporter Program Notices Are Correct;
                             However, Additional Oversight Is Needed



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the information provided to
taxpayers in notices issued by the Wage and Investment Division AUR Program are complete
and accurate. Unless otherwise noted, our limited tests of the reliability of data obtained from
the Master File1 did not identify any errors. We validated the reliability of computer-processed
data by scanning the data received for blank, incomplete, illogical, or improper data. In addition,
we traced a judgmental sample of each data set to IRS source files to ensure accuracy. We did
not perform any testing of internal controls over the systems that were the sources of our data
due to the scope of the review. To accomplish the audit objective, we:
I.      Determined whether the Wage and Investment Division effectively monitors and
        measures the completeness and accuracy of AUR Program notices issued to taxpayers.
        A. Interviewed AUR Program management and reviewed documentation that establishes
           Program goals for the accuracy of Program notices issued to taxpayers.
        B. Interviewed AUR Program management and reviewed documentation that establishes
           Program policy and practices for notice quality.
        C. Reviewed customer satisfaction surveys for the Wage and Investment Division
           AUR Program to determine whether taxpayers have expressed concerns about the
           ease of understanding the Program notices they received.
II.     Determined whether taxpayers are provided with complete and accurate information on
        AUR Program notices.
        A. Selected a statistically valid random attribute sample of AUR Program notices sent to
           138 taxpayers by the Wage and Investment Division in FY 2007 from a population of
           1,343,258 taxpayers with closed Tax Year 2005 AUR Program cases. Our sample
           size was determined based on a 95 percent confidence level, an estimated error rate of
           10 percent, and a precision of ±5 percent. Our sampling methodology was sufficient
           enough to allow us to project our sample results to the population.
        B. Analyzed the cases in our sample to determine whether the notices sent to taxpayers
           by the Wage and Investment Division AUR Program were complete and accurate.



1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 10
                Most Automated Underreporter Program Notices Are Correct;
                         However, Additional Oversight Is Needed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Marybeth Schumann, Director
Bryce Kisler, Audit Manager
Sharon Summers, Lead Auditor
David Hartman, Senior Auditor
Kristi Larson, Senior Auditor
Alan Lund, Senior Auditor




                                                                                   Page 11
                Most Automated Underreporter Program Notices Are Correct;
                         However, Additional Oversight Is Needed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 12
                       Most Automated Underreporter Program Notices Are Correct;
                                However, Additional Oversight Is Needed



                                                                                                    Appendix V

                            Example of a CP 2000 Notice                                     1




1
    All dates, monetary, and taxpayer identifying information contained in this example are hypothetical.
                                                                                                            Page 16
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 17
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 18
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 19
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 20
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 21
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 22
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 23
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 24
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 25
    Most Automated Underreporter Program Notices Are Correct;
             However, Additional Oversight Is Needed



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 26
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 27
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 28
Most Automated Underreporter Program Notices Are Correct;
         However, Additional Oversight Is Needed




                                                     Page 29
